OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




   Progress Made Toward Increased Stability under
   USAID’s Afghanistan Stabilization Initiative-East
  Program but Transition to Long Term Development
              Efforts Not Yet Achieved




                                            June 29, 2012




SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative
                 SIGAR
                                                            SIGAR Audit-12-11                                                                   June 2012
                                                               Progress Made Toward Increased Stability under USAID’s
                                                             Afghanistan Stabilization Initiative-East Program but Transition
Special Inspector General for Afghanistan Reconstruction
                                                                  to Long Term Development Efforts Not Yet Achieved
What SIGAR Reviewed
In June 2009, the U.S. Agency for International Development’s (USAID) Office of Transition Initiatives (OTI) awarded a 3 year,
$151 million task order to Development Alternatives, Inc., (DAI) to implement the Afghanistan Stabilization Initiative-East (ASI-
East) program in Afghanistan. ASI-East focuses on awarding grant activities to local implementers in 10 districts distributed across
four provinces in eastern Afghanistan. A key objective of ASI-East is to support the “hold” phase of the U.S. Counterinsurgency
(COIN) strategy, which consists of “clear, hold, and build” phases designed to permanently stabilize targeted districts and
communities. After task order award, OTI asked DAI to develop a more strategic approach to stabilization programming designed to
target specific sources of instability at the district level. DAI began to implement this new approach, the District Stability Framework
(DSF), in February 2010. In February 2012, OTI awarded a new 3-year, $161.5 million follow-on task order to Creative Associates
International, Inc., to continue ASI programming efforts in eastern and southern Afghanistan under a single implementing partner.
This report assesses to what extent (1) expended ASI-East costs were allowable, allocable, and reasonable; (2) performance oversight,
monitoring, and evaluation systems have been implemented; and (3) progress has been made toward transitioning districts to the
“build” phase of the COIN strategy. To accomplish these objectives, we interviewed Afghanistan-based staff from USAID OTI,
USAID’s Stabilization Unit, DAI, and third-party monitoring staff hired through DAI to provide independent monitoring and
evaluation of the program. We also interviewed USAID OTI staff based in Washington, D.C. We reviewed the ASI-East task order,
related procurement documents, and a sample of 20 grants. We reviewed a range of performance management documents, data, and
systems. We reviewed, analyzed, and tested select DAI billing and timekeeping policies and procedures and incurred costs to
determine if program costs were allowable, allocable, and reasonable. We conducted work in Kabul, Afghanistan, and Washington,
D.C., from May 2011 to June 2012 in accordance with generally accepted government auditing standards.

What SIGAR Found
SIGAR found that although incurred costs under the ASI-East task order were generally allowable, allocable, and reasonable, certain
cost-related issues need to be addressed. These issues included program spending that was marked by high operating costs, more than
$590,000 in questionable program costs, and a limited number of timekeeping and billing deficiencies, which increased the risk of
inappropriate charges.
DAI implemented a range of program oversight, monitoring, and evaluation systems; however, final program results remain to be
determined, and certain administrative issues relating to program oversight need to be addressed in the follow-on task order award.
USAID’s efforts to evaluate ASI-East’s final program results will be critical to assisting with short and long-term decisions regarding
whether and how extensively the DSF methodology should be implemented in stabilization efforts, such as USAID’s Stabilization in
Key Areas program. Program monitoring and evaluation centered on the three-tier system called for by the DSF methodology.
Preliminary results indicate that ASI-East activities have been successfully implemented and that the impact of this program on
stability at the district level has been positive, but overall stability remains poor across ASI-East’s 10 programming districts based on
seven leading indicators of stability developed by DAI and its monitoring and evaluation subcontractor.
Despite nearly 3 years of program efforts, none of ASI-East’s target districts have transitioned to the “build” phase of the COIN
strategy, which is designed to solidify the gains during the “hold” phase of COIN operations. OTI has only recently drafted district-
level disengagement criteria. An exit strategy for OTI programming in Afghanistan remains to be developed under the follow-on task
order for ASI. These efforts will need to be integrated with planned improvements and evaluations of the DSF methodology.
What SIGAR Recommends
SIGAR recommends that USAID OTI (1) review the balance between project and operating costs resulting from the application of the
DSF methodology to ASI-East programming decisions, (2) address identified timekeeping and billing deficiencies, (3) review the
questioned costs identified by SIGAR, (4) include outcome indicators under the DSF, (5) produce a lessons learned summary of ASI-
East’s implementation of the DSF, and (6) develop approved district-level disengagement criteria and a related exit strategy for OTI
programming in Afghanistan. When preparing the final report, SIGAR considered comments from USAID. USAID generally
concurred with the recommendations and noted the actions it has taken or will take to address SIGAR’s recommendations. Based on
USAID’s comments, SIGAR revised recommendations four and five to also address the Stabilization Unit Chief. Through its
Measuring Impact of Stabilization Initiatives program, USAID’s Stabilization Unit in Kabul is responsible for monitoring and
evaluating USAID’’s stabilization efforts, including USAID’s implementation of the DSF.


                       For more information contact: SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil



SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative
OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


June 29, 2012

The Honorable Hillary Rodham Clinton
Secretary of State
The Honorable Leon Panetta
Secretary of Defense
The Honorable Ryan C. Crocker
U.S. Ambassador to Afghanistan
General John R. Allen
Commander, U.S. Forces – Afghanistan, and
  Commander, International Security Assistance Force
Dr. Rajiv Shah
Administrator, U.S. Agency for International Development
Dr. S. Ken Yamashita
USAID Mission Director for Afghanistan

Mr. Robert Jenkins
Director, Bureau for Democracy, Conflict, and Humanitarian
  Assistance/Office of Transition Initiatives (DCHA/OTI)


This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) audit of the U.S. Agency for International Development’s (USAID) task order
with Development Alternatives, Inc., to implement the Afghanistan Stabilization Initiative-East program.
This report includes six recommendations to USAID that address a range of issues including questioned
costs, programming and evaluation methodology, and transition planning.

When preparing the final report, we considered comments from USAID’s Office of Transition Initiatives.
These comments are reproduced in appendix III. SIGAR conducted this performance audit under the
authority of Public Law No. 110-181, as amended, the Inspector General Act of 1978, and the Inspector
General Act of 2008.




Steven J Trent
Acting Special Inspector General
  for Afghanistan Reconstruction




SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative                    Page i
TABLE OF CONTENTS

Background ................................................................................................................................................... 2
Program Spending Marked By High Operating Expenses and Certain
   Questionable Costs ................................................................................................................................. 4
Program Oversight, Monitoring, and Evaluation Systems Implemented but
   Certain Administrative Requirements not Met....................................................................................... 7
OTI Lacks Approved Disengagement Criteria and an Overall program Exit
   Strategy to Move Districts from the Hold to Build Phase of the COIN
   Strategy................................................................................................................................................. 11
Conclusions ................................................................................................................................................. 13
Recommendations ....................................................................................................................................... 13
Comments ................................................................................................................................................... 14
Appendix I: Scope and Methodology ........................................................................................................ 16
Appendix II: Preliminary Monitoring and Evaluation Results ................................................................... 18
Appendix III: Comments from the U.S. Agency for International Development ...................................... 20


TABLES

Table 1: Administrative and Management Issues Relating to Program Oversight ....................................... 8
Table I: DAI Monitoring and Evaluation Preliminary Results ................................................................... 18
Table II: Altai Consulting Monitoring and Evaluation Preliminary Results .............................................. 19


FIGURES

Figure 1: DSF System Flowchart .................................................................................................................. 3
Figure 2: ASI-East Funding and Distribution (as of October 2011) ............................................................ 4




SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative                                                                       Page ii
ABBREVIATIONS AND ACRONYMS

ASI         Afghanistan Stabilization Initiative
COIN        Counterinsurgency
COTR        Contracting Officer Technical Representative
DAI         Development Alternatives, Inc.
DCHA        Bureau for Democracy, Conflict, and Humanitarian Assistance
DSF         District Stability Framework
FAR         Federal Acquisition Regulation
GIRoA       Government of the Islamic Republic of Afghanistan
IQC         Indefinite Quantity Contract
MISTI       Measuring Impact of Stabilization Initiatives
OTI         Office of Transition Initiatives
SIGAR       Special Inspector General for Afghanistan Reconstruction
SWIFT       Support Which Implements Fast Transition
TAMIS       Technical Administrative Management Information System
USAID       U.S. Agency for International Development




SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative   Page iii
    Progress Made Toward Increased Stability under USAID’s Afghanistan
      Stabilization Initiative–East Program but Transition to Long Term
                     Development Efforts Not Yet Achieved


A key objective of the Afghanistan Stabilization Initiative-East (ASI-East) is to support the coalition
Counterinsurgency (COIN) strategy, which includes “clear, hold, and build” phases designed to
permanently stabilize target districts and communities in areas previously controlled by insurgents. 1 The
ASI-East program focuses on implementing small-scale community development and media grants in ten
districts distributed across four provinces in eastern Afghanistan during the “hold” phase of the strategy,
which occurs before long-term development efforts are initiated in the “build” phase.2 ASI-East projects
are intended to build allegiance and confidence between local communities and the Government of the
Islamic Republic of Afghanistan (GIRoA) in target regions and districts. The intended outcome is to
achieve immediate employment generation, improve the community’s infrastructure, and increase access
to public services with the overall goal of improving community and government capacity and public
support for GIRoA.

USAID’s Bureau for Democracy, Conflict, and Humanitarian Assistance/Office of Transition Initiatives
(DCHA/OTI) implements the ASI program in Afghanistan. OTI works on the ground in countries to
provide fast, flexible, short-term assistance targeted at key political transition and stabilization needs.
OTI works closely with USAID regional bureaus and missions and with other U.S. counterparts to
identify programs that complement other assistance efforts and lay a foundation for longer-term
development. In June 2009, OTI awarded a task order to Development Alternatives, Inc. (DAI) under
USAID’s global Support Which Implements Fast Transition III (SWIFT III) indefinite quantity contract
(IQC). The ASI-East program is a 3-year task order with a program ceiling of $151 million. After task
order award, OTI asked DAI to develop a more strategic approach to stabilization programming designed
to target specific sources of instability at the district level. DAI began to implement this new approach,
the District Stability Framework (DSF), in February 2010. The DSF approach represents a shared
terminology and a unified assessment process for identifying and resolving sources of instability in target
areas.

This report assesses to what extent (1) expended ASI-East costs were allowable, allocable, and
reasonable; (2) performance oversight, monitoring, and evaluation systems have been implemented; and
(3) progress has been made toward transitioning districts to the “build” phase of the COIN strategy.

To accomplish these objectives, we interviewed staff in Afghanistan from USAID OTI, USAID’s
Stabilization Unit, DAI, and third-party contractor staff hired by DAI to provide independent monitoring
and evaluation of the program. We also interviewed USAID OTI staff in Washington, D.C. including the

1
  The COIN strategy includes working closely with Afghan counterparts to rid target areas of insurgents (“clear”
phase), provide humanitarian relief and initial government services after it is cleared (“hold” phase), and applying
coordinated civil-military development efforts to reinforce security gains ( “build” phase). The ASI-E program aims
to support the transition from “hold” to “build” by working with government officials and through traditional
community leadership structures to identify sources of instability and implement projects that reinforce security
gains made by coalition forces. These projects lay the groundwork for long-term USAID development projects.
2
  Throughout this report, we refer to 10 districts when discussing ASI-East program activity. This number of
districts was accurate as of October 2011 and these districts do represent the core of ASI-East programming efforts.
Through an ongoing assessment process, however, OTI made the decision to exit and enter districts at multiple
points in the program. As of May 2012, the ASI-East program had active projects in 15 districts in Regional
Command-East and 3 districts in Regional Command-South.
SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative                              Page 1
cognizant contracting officer and contracting officer’s technical representative (COTR) for the ASI-East
task order. We reviewed the ASI-East task order and related procurement documents including the
SWIFT III IQC. We reviewed a range of performance management documents, data, and systems
including DAI’s annual and quarterly performance reports, activity tracking systems, and a three-tier
monitoring and evaluation system and related reports and studies. We reviewed, analyzed, and performed
tests of select DAI timekeeping and billing policies and procedures and incurred costs to determine if
program costs were allowable, allocable, and reasonable per Federal Acquisition Regulation (FAR)
principles. 3 We reviewed DAI’s grant making and oversight procedures for a sample of 20 completed
and closed grants awarded under the task order. We also attended the 3-day DSF training course
delivered by the COIN academy with support from trainers provided by OTI to gain a deeper
understanding of the DSF as a new stabilization programming tool. We conducted our work in Kabul,
Afghanistan, and Washington, D.C., from May 2011 to June 2012 in accordance with generally accepted
government auditing standards.


BACKGROUND

The ASI-East task order required DAI to meet a phased program schedule covering pre-deployment/start
up, full implementation, and project close out. DAI project close out efforts have not yet begun because
OTI recently extended ASI-East’s performance period by 3 months to September 2012. This extension
was designed to allow a more orderly transition to a follow-on task order recently awarded by OTI. The
intent of the follow-on task order is to continue the ASI-East and parallel programming efforts in ASI-
South under a single task order implemented by one implementing partner. The new task order was
awarded to Creative Associates International, Inc., in February 2012, with a ceiling price of
$161.5 million. The new task order has an effective start date of March 2012 and an estimated
completion date of February 2015.

With regard to performance expectations, the ASI-East task order has two objectives: (1) create
conditions that build confidence between communities and GIRoA through improvement of the economic
and social environment in the region, and (2) increase public access and awareness to information about
GIRoA’s social, economic, and political activities and policies in Afghanistan. By design, the task order
requires DAI to be responsive to changes in program strategy by expanding, decreasing, or changing its
program activities with as little as a few days notice. Consequently, these two objectives did not have
associated performance goals and targets because the task order was viewed by OTI as a tactical
programming tool and program direction might need to change on very short notice.

At the time of award, DAI used the military Tactical Conflict Assessment and Planning Framework tool
to identify and select stabilization projects for the ASI-East program. The framework sought the
perceptions of local nationals through the use of a survey to determine specific sources of instability.
Under this approach, DAI awarded 49 initial grants under the ASI-East program totaling $1.3 million. In
December 2010, through the ASI-East task order, OTI implemented DSF to identify specific sources of
instability and program resources accordingly. Through October 2011, DAI awarded an additional 412
grants using the DSF methodology at a total additional cost of about $21 million.




3
 Costs are allowable if they are determined to be allocable and reasonable, among other factors. A cost is allocable
to a Federal award if it is treated consistently with other costs incurred for the same purpose in like circumstances,
amongst other factors. A cost is considered reasonable if in its nature or amount it does not exceed that which would
be incurred by a prudent person under the circumstances prevailing at the time the decision was made to incur the
cost.
SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative                                Page 2
DSF Provides a Uniform Approach for Designing and Evaluating Stability Operations
Programs

After the task order award, OTI determined that it wanted DAI to implement the ASI-East program under
a new methodology that departed from the relatively rudimentary Tactical Conflict Assessment and
Planning Framework tool and moved toward a more rigorous programming and monitoring and
evaluation methodology. OTI’s DSF methodology did not follow the “burn-rate” approach to program
spending, which emphasizes spending funds as quickly as feasible. In contrast, the DSF programming
model takes a more strategic view toward spending, which DAI’s Chief of Party described as a “small and
smart” approach to stabilization programming. Both OTI and DAI agreed on the need for this new
programming methodology and, in coordination with COIN Training Academy, developed the DSF in
early 2010 under the ASI-East program as an integrated civilian-military methodology for identifying,
implementing, and measuring the impact of stabilization activities.

DSF provides civilians, military, and GIRoA officials with a shared terminology and a unified assessment
process for gauging the stability picture across a district or area, identifying local sources of instability,
and developing coherent and tailored programs and interventions to address them. DSF emphasizes
assessing results and modifying and adapting program activity based on empirical data. The DSF system
requires a three-tier monitoring and evaluation system, which measures output, impact, and overall
stability conditions at the district level. DSF implementation efforts have included developing several
iterations of the methodology and training more than 1,200 civilian and military personnel.

Figure 1 shows the basic elements of the DSF methodology and the four-phase process, which starts with
situational awareness and concludes with monitoring and evaluation efforts with a feedback loop back to
the first phase in the process. The DSF is implemented at the district-level by a civilian and military
working group charged with designing and implementing a set of projects to address specific sources of
instability that are aligned with stabilization programming goals.


        Figure 1: DSF System Flowchart

                                             DSF Roadmap

           Collect and
             Analyze
           Situational                                                                    Monitoring
           Awareness                                                                         and
              Data                                                                        Evaluation
                                                                                            Matrix


                                   Sources of    Tactical     Activity    Tactical
            Cultural     Factors
                                   Instability   Stability    Design      Stability
            Matrix       Matrix
                                    Analysis      Matrix     Worksheets    Matrix




                                                                                            Stability
              Local                                                                        Indicators
           Perceptions

                                                                           Sync
                                                                          Matrix




           SITUATIONAL                                                                MONITORING &
                                     ANALYSIS                  DESIGN
           AWARENESS                                                                  EVALUATION




        Source: USAID OTI




SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative                         Page 3
Grant Activity and Funding

ASI-East program resources are largely distributed through a “grants under contract” approach, which
relies on DAI as the contractor to award, administer, assess, and close-out grants to local community
implementers. As of October 16, 2011, DAI awarded 461 grants at a total cost of about $21.2 million in
ten districts distributed across Nangarhar, Kunar, Wardak, and Paktika provinces in eastern Afghanistan.
These grants cover a wide-range of projects, such as improvements in agriculture and irrigation;
assessments of community and district availability of services; media outreach efforts that showcase
GIRoA’s involvement in providing needed services; and a variety of infrastructure projects, including
repairing and building new roads, retaining walls, flood ditches, and sanitation facilities. Figure 2
provides a breakout of ASI-East activity funding and the number of grants awarded through October
2011.


Figure 2: ASI-East Funding and Distribution (as of October 2011)


                                                      Training       Agriculture
                                                 $2,864,351         and irrigation
                                                                     $3,400,008
                                     Technical (83 activities)
           Shura/Jirga                                              (64 activities)
                                     assistance
             $606,828
                                      $1,840,337
           (55 activities)
                                     (6 activities)                               Assessments
                                                                                   $2,725,605            Call-in line
        Scribe                                                                   (40 activities)           $247,171
      $130,158                                                                                           (5 activities)
    (10 activities)

                                                          Infrastructure
  Procurement
                                                            $7,294,469
     $162,866                                                                                       Event planning
                             Media                         (89 activities)
   (13 activities)                                                                                      $681,001
                        $1,229,443                                                                    (47 activities)
                       (49 activities)


Source: SIGAR analysis of DAI provided grants data.
Note: Shura/jirga is an Afghan meeting of a decision making body (typically tribal/village elders). In the context of the ASI-
East program, these meetings were convened to discuss grant-funded activities. Scribe activities were used to gather and
record certain demographic information.




PROGRAM SPENDING MARKED BY HIGH OPERATING EXPENSES AND
CERTAIN QUESTIONABLE COSTS

While DAI did not exceed the $151 million cost ceiling for the ASI-East task order, program expenditures
largely covered operating expenses, as opposed to activity level spending. DAI officials noted that
relatively low activity spending levels represented a “small and smart” approach to stabilization, which
OTI officials endorsed based on the application of the DSF methodology to ASI-East programming
decisions. SIGAR identified over $590,000 in questionable program costs that will need to be reviewed
by USAID to determine whether these costs were allowable, allocable, and reasonable. Finally, SIGAR
noted a limited number of procedural and compliance deficiencies associated with two of DAI’s key
business systems.


SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative                                           Page 4
ASI-East Implementation Marked by Low Activity Spending and High Operating Costs

SIGAR found that DAI had spent only 25 percent of expended funds on project activities through October
2011, with the balance of funds spent on operating expenses. This spending pattern was not consistent
with the implied spending ratios in the task order, as stipulated at the time of award. Specifically, the task
order stipulated that up to $83 million could be spent on program activities and up to $68 million could be
spent on operating costs. 4 Therefore, the implied spending ratio was 55 percent on program activities and
45 percent on operating costs.

DAI representatives noted that the ASI-East program has been implemented under a “small and smart”
approach to stabilization based on the application of the DSF methodology. One result of the application
of this “small and smart” approach to programming is that the ratio of project costs to operating costs is
not in line with the implied spending ratio in the task order. DAI officials noted that the “small and
smart” approach to programming was approved by OTI officials because it represents the logical outcome
of applying the DSF to programming decisions. DAI officials also noted that this approach contrasts with
the “burn rate” approach typically used by other assistance programs. They also noted that unlike many
other USAID programs which often involve large capital expenditures for infrastructure development,
ASI-East’s use of small grants to local implementers tended to depress program spending levels.

DAI officials noted that administering and overseeing these small grants requires the same level of effort
and operating expenses as administering and overseeing large dollar contracts and assistance instruments.
DAI also stated the required operating expenditures needed to establish and operate the ASI-East program
were not excessive or unreasonable. Specific operating costs included office and living space rental in
Kabul and locations across Afghanistan, security costs, and the large number of personnel needed to
implement and oversee the hundreds of grants awarded under the program.

DAI Charged More Than $590,000 in Questionable Costs to the ASI-East Program

We generally found that the ASI-East incurred costs were allowable, allocable, and reasonable with the
following exceptions:

    •    OTI originally contracted directly with a contractor (QED) to provide independent monitoring
         and evaluation services for the ASI-East program. QED subcontracted with Altai Consulting to
         provide these services. The contract between OTI and QED expired in July 2011. To provide
         follow-on monitoring and evaluation services, OTI requested that DAI subcontract with Altai
         Consulting to perform additional cycles of monitoring and evaluation in three districts, at a total
         cost of over $500,000. OTI staff developed a conflict of interest mitigation plan to address
         questions of independence and oversight raised by this arrangement. The plan called for OTI to
         provide oversight of the subcontract and directly receive all subcontract deliverables. DAI’s role
         in administering the subcontract was essentially limited to reviewing and approving invoices for
         payment. In response to the draft of this report, OTI’s Contracting Officer provided additional
         information regarding the basis for making a determination that the over $500,000 was allowable.
         The response, however, did not address the subcontractor oversight. The mitigation plan that was
         implemented by OTI between DAI and Altai limited DAI’s ability to provide adequate
         subcontractor oversight, as required by FAR 42.202(e)(2) . DAI’s role in administering the
         subcontract was essentially limited to reviewing and approving invoices for payment. Therefore,
         we continue to question whether the cost of over $500,000 was allowable.
    •    We found that the $3,400 cost of a household effects demobilization shipment that was related to
         a DAI Iraq project was incorrectly charged to the ASI-East program. Per the FAR, such costs are
         unallocable.



4
 Dollar figures based on a revised budget approved under modification 4, approved July 27, 2010, to the task order.
SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative                              Page 5
    •   DAI maintained full comprehensive and war insurance on purchased armored security vehicle
        while they were in the United States waiting for Afghan customs approval for importation.
        Property damage insurance alone likely would have provided sufficient coverage and resulted in
        an estimated cost savings of $50,000 if DAI had gone with this lower cost option. These
        additional costs appear to be unreasonable and therefore unallowable per FAR requirements.
    •   While waiting for its purchased armored vehicles to arrive in Afghanistan, DAI leased armored
        vehicles, which were covered with comprehensive and war insurance per the terms of the rental
        agreement. During that time, DAI traded in old leased vehicles for newer ones. When this
        occurred, DAI added the new vehicles to its insurance policy; however, it did not remove the
        leased armored vehicles no longer being used. As a result, DAI billed $38,500 in 2011 for
        insurance costs on vehicles that were not being utilized by the project; these additional costs
        appear to be unreasonable and therefore unallowable per FAR requirements.

Relatively Minor Deficiencies in DAI’s Time Keeping and Billing Related Processes Noted

We reviewed, analyzed, and performed limited testing on controls of DAI’s time keeping and billing
systems. We followed the General Accounting Office Standards for Internal Control in the Federal
Government, which states that physical controls must be in place to secure and safeguard vulnerable
assets at risk of loss or unauthorized use. 5 Generally, DAI’s time keeping and billing policies and
procedures functioned properly, with a few minor exceptions:

    •   With regard to DAI Afghan staff timesheets, we observed multiple occurrences where individuals
        entered time for other individuals on physical timesheets displayed in the lobby of DAI’s
        headquarters in Kabul.
    •   DAI supervisors sign Afghan timesheets on a monthly basis, as opposed to the bi-weekly reviews
        conducted of expatriate staff timesheets.
    •   We noted several instances where DAI did not initially furnish complete supporting
        documentation for paid invoices. For example, travel invoices did not have the proper contracting
        officer approval letter attached, procurement invoices did not have all bidding documentation
        attached, and a brokerage fee had no attached invoice. DAI was able to furnish all supporting
        documentation once requested. DAI noted that while it does not always keep all supporting
        documentation attached to invoices, supporting documentation is available in a separate location.
        SIGAR questions this arrangement, which does not provide adequate assurance that OTI
        contracting staff have sufficient supporting information available when reviewing and approving
        invoice claims.
    •   When leasing items, contractors generally perform a buy versus lease cost analysis to ensure that
        the government receives the best value for the money. This cost analysis is not only used for
        contractor purchases, but also for subcontracter purchases. DAI’s security subcontractor,
        Edinburgh International, leased several items including computers and printers, body armor, night
        vision goggles, and soft skin vehicles without conducting a buy versus lease analysis. In certain
        cases it would have been cheaper to procure leased items. For example, SIGAR estimates that
        $20,000 could have been saved by purchasing computers and printers directly compared to
        leasing the same equipment. According to DAI, Edinburgh International did not conduct buy
        versus lease cost analyses for the items discussed above.




5
 U.S. General Accounting Office, Standards for Internal Control in the Federal Government, GAO-AIMD-00-
21.3.1 (Washington, D.C.: Nov. 1999). See also Development Alternatives, Inc.: 2010 Financial Statement and
Audit Results (Ernst&Young, May 5, 2011). DAI’s external auditors’ opinions of its financial statements for 2009
and 2010 considered DAI’s internal controls when performing the financial audits.
SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative                            Page 6
PROGRAM OVERSIGHT, MONITORING, AND EVALUATION SYSTEMS
IMPLEMENTED BUT CERTAIN ADMINISTRATIVE REQUIREMENTS NOT MET

DAI and OTI implemented program oversight and monitoring and evaluation systems through a variety of
means, including a “grants under contract” tool managed by DAI that was adequately implemented;
however, certain administrative requirements of the ASI-East task order related to project oversight were
not fully met. 6 Program monitoring and evaluation centered on the three-tier evaluation system called for
by the DSF methodology. Developing this three-tier monitoring and evaluation system took 16 months
and final output, impact, and overall stability results are not expected until sometime in 2012.
Preliminary results, however, show significant and positive results at the project level while instability
remains a problem across ASI-East’s ten program districts in general. USAID’s efforts to evaluate final
ASI-East’s program results will be critical to informing short and long-term decisions regarding whether
and how extensively this new methodology should be implemented in future stabilization efforts.
Although we noted significant levels of program oversight, monitoring, and evaluation, we also identified
a limited number of administrative issues relating to program oversight.

DAI and OTI Provided Program Oversight

DAI and OTI staff provided oversight of ASI-East program activities in ten districts across the Regional
Command East platform through a variety of means. One key component of provided oversight is the
“grants under contract” tool that is managed by 25 DAI expatriate staff overseeing 244 DAI Afghan
employees based in Kabul, Jalalabad, and ten District Development Teams. This process requires that a
series of award, implementation, and close-out procedures be followed for each grant. Specific
requirements include a document checklist, which identifies required grant documents, procurement
documents, financial documents, and reporting and evaluation documents. In addition, financial action
status, OTI database inputs, and approval signatures from DAI and OTI representatives are required for
each grant. To assess whether DAI and OTI exercised adequate controls and oversight, we reviewed a
judgmental sample of 20 completed and closed grants awarded by DAI, as of December 2011, and found
controls to be adequate for each activity. Specifically, we found that all activity folders contained the
information required by DAI for documenting the grant award, implementation, and close-out process.

Located in Washington, D.C., OTI’s COTR is responsible for overseeing the ASI-East program and
approving the payment of all project invoices. The COTR’s oversight efforts are supplemented by an
extensive network of OTI staff in Afghanistan, which includes a Country Representative based at the
embassy in Kabul and a Field Operations and Project Manager and Deputy Regional Representative
located in Jalalabad. 7 These individuals provide additional oversight by working directly with DAI staff
in Kabul and Jalalabad and with Regional Command East representatives. All OTI staff have access to
DAI-prepared weekly, annual, and quarterly performance reports, which typically include program
description, country situation, program activity highlights, successes and challenges, activity summary,
program appraisal, and DSF activity status.

OTI also provided oversight of the ASI-East program by conducting periodic program performance
reviews and strategic review sessions. These reviews are designed to provide a review of task order
progress and key challenges by staff not directly associated with the program. OTI conducted program
performance reviews of ASI-East’s activities in November 2010 and October 2011. Key findings from
these two reviews include the following:

6
 The ASI-East task order outlines the need for DAI in coordination with USAID/OTI to institute a (1) a monitoring
and evaluation system; (2) weekly, quarterly, and annual performance reports; (3) participation in strategic review
sessions; and (4) the maintenance of the OTI activity database as the backbone of the performance management
system.
7
 As of October 2011, seven OTI staff members were located in Kabul, two were located at the regional command-
East platform in Bagram Air Force base, and six others were stationed at other Coalition Forces forward operating
bases in the districts in which OTI works.
SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative                              Page 7
       •    The USAID Kabul Mission should maintain stabilization programming capacity, especially in the
            East and South regions, throughout transition over the next 3 years, despite engagement
            constraints.
       •    OTI and DAI need to prepare exit criteria and transition strategies to help move districts from the
            “hold” to the “build” phase of the COIN strategy.
       •    OTI should develop a new task order under the SWIFT III IQC with a single implementing
            partner to consolidate ASI-East and ASI-South. 8

To review and adjust program activities, OTI and DAI also conducted bi-annual strategic review sessions.
The most recent session was conducted in Kabul in October 2011 and was widely attended by OTI and
DAI staff from Washington, D.C., and Kabul and Jalalabad, as well as district field personnel.
Participants discussed program strategy and monitoring and evaluation efforts, including DAI’s first
“Lessons Learned” report. 9 This report analyzed 90 program activities that were closed and completed in
order to identify best practices to apply to future activities.

Certain Program Oversight Elements Not Fully Implemented

SIGAR found that certain administrative and management requirements relating to program oversight had
not been fully met, as shown in table 1.


    Table 1: Administrative and Management Issues Relating to Program Oversight
    Issue                    Description
    Data validity concerns   The IQC and task order state that DAI should maintain and use the USAID/OTI Activity
                             Database as the “backbone” to generate, develop, manage, monitor, evaluate, and report
                             on program activities. This database has several fields that need to be populated with
                             information that captures the status of the program activity. Per an understanding with OTI
                             officials, DAI used its Technical Administrative Management Information System (TAMIS)
                             to track program activities. Information from this system is being modified on a weekly
                             basis in order to provide a “data dump” into the USAID/OTI Activity Database. We found
                             that OTI accepts the data from DAI’s TAMIS system without conducting periodic data
                             reliability checks. OTI officials noted that they monitor the data uploaded into the OTI
                             Activity Database; however, we were told that this monitoring is performed in Washington,
                             D.C. and not locally in Kabul, where better checks on data reliability could be performed.
                             SIGAR reviewed data for similar periods in the OTI Activity Database and TAMIS and
                             found discrepancies that overstated TAMIS reported activity. While these discrepancies
                             were ultimately explained by OTI officials, we believe data validation should occur at the
                             field level to ensure consistent reporting in both systems.
    Fraud reporting          We noted three instances of fraud not reported to USAID officials in a timely manner as
                             required by USAID policy and FAR 11,12. Fraud-related costs, per DAI’s disclosed
                             practices and USAID guidance, are to be set aside in an unallowable account so that these
                             costs are not billed to and reimbursed by the U.S. government. We noted that DAI
                             identified three instances of fraud between December 12, 2010, and April 19, 2011, that
                             totaled approximately $1,000. In two instances, the fraud was discovered before the
                             expense was reimbursed to the employee and captured in DAI’s financial software. For
                             the final instance, the fraudulent amount was processed and captured in DAI’s financial
                             software. After the fraudulent amount was discovered, DAI asserts that the amount was
                             charged to a non-billable account and was not billed to USAID. However, we have not
                             been able to confirm whether the unallowable cost was actually charged to a non-billable
                             account. DAI has since changed its policy with regards to reporting fraud based on
                             SIGAR’s observations. DAI will now report all instances of fraud, regardless of amount or
                             if it was billed to USAID, to comply with USAID policies and FAR requirements.


8
 In February 2012, OTI awarded a task order to consolidate East and South program activity under a single task
order to Creative Associates International.
9
 DAI formally transmitted these lessons learned in its report: DAI, Monitoring & Evaluating ASI-East: Key Results
from Output Monitoring and Overall Stability Monitoring, October 23, 2011.
SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative                                  Page 8
 Issue                     Description
 Subcontract oversight     DAI’s oversight of its subcontract with its security contractor’s, Edinburgh International, is
                           limited. The Defense Contract Audit Agency’s audit manual notes that prime contractor
                           oversight of subcontractors should 1) include subcontract award, (2) include technical and
                           financial performance monitoring, (3) ensure that indirect rate proposals and annual rate
                           adjustments are submitted on a timely basis (incurred cost proposal), and (4) ensure that
                           payment to the subcontractor for the work accomplished was in accordance with the
                           subcontract terms and based on allowability, allocability and reasonableness principles.
                           DAI did not fully follow this guidance based on our review of documentation and interviews
                           with DAI staff. DAI disputes this characterization, noting that requirements one and two
                           have been met through various contracting and security officials meeting with Edinburgh
                           International officials and reviewing Edinburgh International contract requirements and
                           billings. DAI asserts that it has addressed the third oversight requirement by negotiating
                           Edinburgh International’s indirect rate at the beginning of the contract and will adjust the
                           indirect rate at the end of the contract. DAI asserts that Edinburgh International has an
                           adequate billing system that ensures costs billed are allowable, allocable and reasonable.
                           Additionally, DAI reviews Edinburgh International’s billings to ensure their accuracy.
                           Despite these cited instances of provided oversight, we found that DAI is not providing
                           adequate oversight as required by the task order because we found no evidence that it is
                           performing yearly reviews of Edinburgh International’s overhead rates to determine their
                           reasonableness. In addition, DAI has not been able to provide evidence that it reviewed
                           Edinburgh International’s key business systems to ensure that process and internal
                           controls are adequate for determining that the costs Edinburgh International is incurring
                           and billing are allowable, allocable, and reasonable.
 Source: SIGAR analysis.



Monitoring and Evaluation Systems Provide Initial Insights on Program Results and DSF
Implementation

Beginning with the April 2010, arrival of its current monitoring and evaluation director, DAI sought to
develop a three-tier monitoring and evaluation system based on DSF requirements to assess, among other
items, ASI’s effect on the overarching strategic goal of bolstering the capacity and legitimacy of the
Afghan government at the community level. OTI contracted separately with a third-party provider, QED,
which then subcontracted with Altai Consulting, in June 2010, for an independent assessment of program
outcomes and impact using a different assessment methodology. Preliminary monitoring and evaluation
results as of December 2011 from both efforts show a range of documented outputs and encouraging
impact at the program level, while overall stability was judged as being low across ASI-East’s ten
programming districts. When DAI and Altai Consulting’s evaluation efforts are completed later in 2012,
OTI and DAI believe they will have the information they need to evaluate ASI’s overall impact and the
relative success of DSF as a stability programming model. Appendix II contains further details on the
DSF and Altai Consulting monitoring and evaluation methodologies and the preliminary results of these
efforts.

DSF and Altai Consulting Monitoring and Evaluation Methodologies

The DSF monitoring and evaluation methodology focuses on measuring results at three levels: output,
impact, and overall stability. 10 DAI’s monitoring and evaluation unit designed and implemented a system
that follows the DSF methodology. DAI’s monitoring and evaluation staff collected and analyzed data
for program output and impact measurement and contracted with RSI Consulting to conduct data


10
  Evaluation activities normally focus on outputs, outcomes, and impacts. As noted in our report, the DSF
evaluation methodology does not currently address outcomes. Outputs are defined as measurable outputs from
program activities such as miles of drainage ditches built or hours of media broadcast each week. Outcomes are
defined as the observed effects of the outputs on the beneficiaries of the program such as improved agriculture
yields or improved perceptions of the Afghan government. Impact is defined as the degree to which the observed
outcome(s) can be attributed to the funded activities.
SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative                                   Page 9
collection and analysis efforts for measuring ASI’s contributions to overall stability. DAI data collection
efforts for all three levels will be concluded before the task order ends in September 2012.

Issues and questions addressed by DAI using the DSF model at each level include the following:

     •   Level 1/output: Have scheduled activities been completed and successfully implemented? Are
         external factors affecting the implementation of scheduled activites?
     •   Level 2/impact: Is the intended impact or change being seen in the environment? Do observed
         changes in the environment represent progress toward stated objectives and a diminishment of the
         root causes of instability? How are external factors influencing or causing any observed changes?
     •   Level 3/overall stability: Are the collective efforts (ASI-East and any other programming efforts)
         to address the sources of instability in a given district leading to improved stability as measured
         by a standard set of seven indicators? Does trend data over time indicate that the security
         situation is getting better or deteriorating in a given district?

Altai Consulting monitoring and evaluation consists of four cycles that are scheduled to conclude in June
2012. The first cycle focused on monitoring program outputs. Cycles 2 through 4 will address
monitoring, impact, and overall stability questions in two districts for cycle 2 and three districts for cycles
3 and 4.

Reports Show Mixed Results on Output and Overall Stability

DAI issued its first formal report on level 1/output results in September 2011.11 Issued as a “lessons
learned” report, the document presents DAI’s analysis of 90 completed program activities which found
that these activities had achieved their intended purposes. The report also highlighted success stories that
should help guide future programming decisions. The report focused on how to improve (1) activity
implementation through community buy-in, physical presence of GIRoA officials, and publicizing
projects; and (2) activity operations through adopting the Afghan First Initiative, 12 vetting suppliers and
trainers, providing performance feedback, and ensuring that cash payments for work are timely.

In October 2011, RSI Consulting provided DAI with a final report on level 3/overall stability results
demonstrating that overall stability in all ten ASI-East districts is relatively low based on the key
indicators of stability. 13 Specifically, the low levels of stability are attributed to security issues within
districts, a lack of confidence in the local and national government, and underlying cultural differences
between locals and outsiders.

Altai Consulting independent monitoring and evaluation efforts have generally confirmed the preliminary
results revealed by DAI’s early monitoring and evaluation efforts.

DAI’s First Impact Assessment Released in January 2012

In January 2012, DAI released its first assessment of the impact ASI-East programming had on nine
sources of instability in four districts. 14 The goals of the assessment were to identify stability-related
changes in the selected districts over the last 18 months, to examine the factors that explain those
changes, and to understand the effectiveness of different programming strategies used in each district.

11
  DAI, Lessons Learned Report: Afghanistan Stabilization Initiative-East, September 19, 2011.
12
  Since March 2006, U.S. military and civilian agencies operating in Afghanistan have taken steps to ensure that a
greater number of contracts are awarded to Afghan companies. Over time, these efforts have become collectively
known as the Afghan First Initiative.
13
  RSI Consulting, Overall Stability Assessment in 10 Districts in Afghanistan, October 2011.
14
 USAID published DAI’s assessment in the following document, USAID, Preliminary Impact Assessment in Four
Districts in Eastern Afghanistan: Khogyani, Marawara, Saydabad, and Urgun, January 16, 2012.
SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative                             Page 10
This assessment concluded that ASI-East programming was found to have a positive impact on 5 of the
9 sources of instability. In one case, ASI-East programming was found to have reduced the source of
instability. In three cases, the data gathered could not establish a positive or negative effect. The report
noted that because data was collected in the middle of programming, results of this assessment are not
comprehensive or predictive of the final impact of ASI-East. Although preliminary, these findings offer
feedback for ASI-East as it refines its strategy in the final phase of programming and for follow-on
application of the DSF methodology. 15

The assessment concluded that DSF is an effective and versatile methodology that allowed it to identify
changes in the environment and adjust ASI-East programming decisions accordingly. The assessment
also provided recommendations for improved implementation of the DSF including (1) beginning
program activities after an area has reached the “clear” stage of the COIN strategy, (2) increasing
coordination with the military is needed so programming can start immediately after military operations
cease, (3) increasing community involvement by GIRoA, and (4) performing community assessments
before programming begins.

Project Outcomes Not Included in DSF Monitoring and Evaluation Methodology

We did not identify methodological flaws or problems with how DAI and Altai Consulting are
implementing their monitoring and evaluation efforts. However, we did note that the DSF methodology
does not include measuring outcomes. Measuring project outcomes would help implementers gain
feedback on how projects are received by the beneficiaries and provide a leading indicator for level 2
impact analysis. Adding project outcomes to level 1 analysis on outputs will allow for earlier feedback
and project adjustment to obtain better results.

We also noted that level 3 analysis on overall stability was first reported 28 months into the task order.
While the analysis provided valuable information, it would have been better if it had been performed at
the beginning of the task order or when stabilization efforts begin in new districts. This would have
provided baseline information for subsequent results analysis. This is a key lesson learned for all future
stabilization programs using the DSF methodology.


OTI LACKS APPROVED DISENGAGEMENT CRITERIA AND AN OVERALL
PROGRAM EXIT STRATEGY TO MOVE DISTRICTS FROM THE HOLD TO BUILD
PHASE OF THE COIN STRATEGY

Despite nearly 3 years of program activity, none of DAI’s target districts have transitioned to the “build”
phase of the COIN strategy. 16 SIGAR found that approved disengagement criteria for individual districts
and an overall transition strategy for the program remain to be developed. OTI Afghanistan has drafted a
set of disengagement criteria for districts that could provide a clear basis for deciding to terminate “hold”
programming in a given district; however, the draft criteria lack any target indicators or benchmarks to
provide the basis for such a decision. These target indicators or benchmarks would likely be tied to the
output and impact measures which DAI and OTI’s monitoring and evaluation contractor are pursuing.
Under the provisions of the SWIFT III IQC, OTI is to develop an exit strategy for each OTI program

15
  The report noted other methodology limitations. The most significant limitation was the lack of baseline
information, which made it difficult to compare the situation before the ASI-East program began addressing the
sources of instability. In addition, the assessment was conducted during the summer, a period when violence
typically increases, which may have influenced respondents’ assessments of stability in their districts. Finally, the
ASI-East program was only one of several stabilization programs in the operational districts, other actors may
influence the stability objectives ASI-East is designed to achieve. This presented a challenge to attributing observed
changes to the ASI-East program.
16
  In responding to our draft report, USAID noted that districts in Wardak and Kunar provinces, where ASI-East
programming took place, were recently identified as ready for transfer to GIRoA (see app. III).
SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative                               Page 11
within 18 months of the program start-up, including the ASI-East program. OTI has not yet developed an
exit strategy to guide its programming efforts, which must be integrated with U.S. government and
mission-wide transition planning efforts for Afghanistan. However, OTI officials noted that such a
transition strategy would be developed in connection with the 3-year extension of the ASI program that
began in February 2012.

OTI Lacks Approved Disengagement Criteria and a Program Exit Strategy

OTI programs are designed to be short, targeted, and flexible. In accordance with its SWIFT III IQC,
OTI generally plans to exit a country program within 2 years of initiating activity. In Afghanistan, OTI
expected that the 3 year ASI effort would lead to at least some districts transitioning from the “hold” to
the “build” phase of the COIN strategy. All OTI programs are required to have an exit strategy developed
within 18 months of program start-up. Both OTI led program performance reviews of ASI-East program
noted the need for OTI to prepare exit criteria and exit strategies to help move districts from the “hold” to
the “build” phase of the COIN strategy. This issue was also identified as an area of concern by the
USAID Office of the Inspector General in its November 2011 report on the implementation of the ASI
program in southern Afghanistan. 17 The report noted that the mission does not have a transition plan and
recommended that USAID Afghanistan identify the districts in which it intends to implement post-
transition development projects, develop transition plans for districts in which it plans to implement
future projects, and close-out programs for districts where it will not implement new projects.

On October 21, 2011, OTI representatives in Afghanistan developed a draft set of disengagement criteria
in response to recommendations from the two program performance reviews conducted by OTI and
specifically included criteria under which ASI-East may discontinue stability programming in a district.
However, the draft lacks target indicators or benchmarks that could provide the basis for applying the
broad criteria described in the draft criteria. These target indicators or benchmarks should be tied to the
impact and overall stability measures which DAI and Altai Consulting are currently developing.

The OTI official who drafted the disengagement criteria was subsequently re-assigned; however, OTI’s
current Country Representative noted the document has not yet been vetted or discussed with Mission or
military colleagues at post. OTI officials noted that these draft exit criteria will be finalized in connection
with the new ASI task order.

OTI officials noted that an 18-month district exit strategy has not been developed and that no other
transition plans have been put in place by the embassy. OTI officials noted that an exit strategy will be
developed under the follow-on task order to ASI-East that will combine OTI stability programming
efforts for both the South and East under a single task order, which was awarded in March 2012, for a
3 year period. The development of this exit strategy will need to be consistent with any final
disengagement criteria OTI develops and carefully coordinated with ongoing civilian and military
transition planning efforts.

The issue of disengagement criteria and exit strategy are linked to current and future implementation of
the DSF methodology. Responsibility for further development and evaluation of the DSF has been
transferred from OTI to USAID Afghanistan’s Stabilization Unit, which will now provide DSF training
and future assessments of and enhancements to the methodology. A Stabilization Unit official noted that
the Stabilization Unit intends to include a review of the DSF under USAID’s Measuring Impact of
Stabilization Initiatives (MISTI) program. MISTI is a $15-million, three-year program that began in
March 2012, which will provide third-party impact assessment and evaluation services for the
Stabilization Unit. As part of this effort, the contractor will be expected to evaluate the implementation of
the DSF and draw lessons learned.


17
 USAID Office of Inspector General, Audit of USAID/Afghanistan’s Afghanistan Stabilization Initiative for the
Southern Region, Audit Report No. F-306-12-001-P, November 13, 2011.
SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative                          Page 12
CONCLUSIONS

As a key building block of the U.S. COIN strategy, stabilization programs such as ASI must succeed if
the United States is to achieve its short and long-term military and economic support drawdown goals.
As the pilot implementation of the DSF methodology, the ASI-East program provides a critical
opportunity to extract lessons learned for application to follow-on stabilization awards which will use the
DSF methodology. Key challenges facing the implementation of ASI-East’s stabilization efforts and
related follow-on efforts include (1) relatively low project spending levels and high operating costs,
(2) certain procedural deficiencies with key DAI business systems and certain questioned costs, (3) the
implementation and assessment of the DSF programming methodology, and (4) the lack of approved
district-level disengagement criteria and a country-wide exit strategy for OTI’s programming efforts.
Additionally, it is noted that the ASI-East program has not yet transitioned any target districts from the
“hold” phase to the “build” phase of the COIN strategy.


RECOMMENDATIONS

To help ensure that the ASI-East program is implemented within the terms of OTI’s IQC and the ASI-
East task order and applicable cost principles, SIGAR recommends that USAID/DCHA/OTI in
Washington, D.C., in conjunction with OTI Kabul mission staff:

    1. Review the ASI-East program spending patterns to determine if the current spending levels
       represent a reasonable balance between program spending versus operating costs.
    2. Instruct the contractor to address and correct the identified timekeeping and billing internal
       control weakness and procedural shortcomings.

To ensure that ASI-East program costs are allowable, allocable, and reasonable, we recommend that the
Contracting Officer in Washington, D.C.:

    3. Review the more than $590,000 in questioned costs outlined below and recover these funds as
       deemed appropriate:
        a. The $500,000 in potentially unallowable costs associated with DAI’s sub-contract award to
           Altai Consulting for monitoring and evaluation services.
        b. The $3,400 in unallowable shipping costs associated with a different DAI contract.
        c. The $50,000 in wasteful spending on insurance cost for non-operational armored vehicles.
        d. The $38,500 in wasteful spending on insurance for leased armored vehicles.

To improve ASI-East program performance oversight, monitoring, and evaluation systems and assess the
overall utility and success of the DSF programming model, SIGAR recommends that USAID/DCHA/OTI
in Washington, D.C., in conjunction with OTI Kabul mission staff and the Stabilization Unit Chief, as
appropriate:

    4. Incorporate an assessment of activity outcome results into level 1/output measurement of the DSF
       monitoring and evaluation methodology and perform level 3/overall stability monitoring and
       evaluation when entering new districts.
    5. Provide input to the Stabilization Unit Chief to produce an interim and final lessons learned
       summary of the ASI-East program’s implementation of the DSF to be considered by senior
       USAID, military, and State Department officials as future decisions are made regarding the
       application of the DSF methodology to other stabilization programs.




SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative                     Page 13
To help ensure future progress toward transitioning districts to the “build” phase of the COIN strategy,
SIGAR recommends that USAID’s Bureau for Democracy, Conflict, and Humanitarian Assistance/Office
of Transition Initiatives in Washington, D.C., in conjunction with OTI Kabul mission staff:

    6. Finalize draft disengagement criteria to facilitate programming decisions at the district level and
       develop an exit strategy to guide overall OTI programming decisions at the country level.


COMMENTS

In commenting on a draft of this report, USAID/OTI generally concurred with the recommendations and
noted the steps that it has taken or will take to address them. USAID also provided some general and
technical comments and clarifications, particularly regarding the role of ASI-East in the larger COIN
strategy, which we incorporated into the final report, as appropriate. USAID’s comments and our
response to these comments are reproduced in appendix III.

In response to recommendation one, USAID/OTI concurred with the recommendation and stated that
reviews have taken place during the course of the program and will continue for the remainder of the
program. OTI provided clarification of the terminology we used in the report and recommendation
regarding our characterization of programming spending levels. In response, we incorporated the
distinction between program costs versus operational costs, as opposed to program costs versus overhead
costs.

Regarding the second recommendation, USAID/OAA requested clarification of the guidance that was
used. We provided the guidance that we used in SIGAR comment six in appendix III.

In response to recommendation three, USAID/OAA concurred with the recommendation and has taken or
will take steps to recover any money that is determined unallowable. USAID specifically stated that
(1) the $500,000 in questioned contract costs was allowable and no recovery action was required; (2) the
$3,400 in questioned shipping costs has already been recovered; (3) the $50,000 in questioned insurance
costs is currently being reviewed by the contracting officer; and (4) the $38,500 in questioned insurance
costs is currently being reviewed by DAI and any overpayment adjustments made by the insurance carrier
will be recovered.

In response to recommendation four, USAID/OTI concurred that level 3 (overall stability) analysis should
be performed when entering a new district, but did not concur that outcomes should be added to level 1
analysis because they do not have ownership of the DSF. In addition, USAID/OTI stated that the ASI
program has more robust analysis at the level 1 (output) stage, which provides some level of outcome
monitoring, and is looking at options to most effectively measure outputs, outcomes, impact, and overall
stability in future programming and further noted that MISTI will facilitate this process. We agree that
OTI no longer has ownership of the DSF and updated our recommendation to also include the
Stabilization Unit, given the collaborative relationship between the DSF coordinator and the Stabilization
Unit.

In response to recommendation five, USAID/OTI concurred that lessons learned from the DSF should be
shared with other stakeholders and implementers. USAID/OTI did not concur with the recommendation
to develop a lessons learned DSF summary, stating it was a duplicative effort under the Stabilization
Unit’s ongoing efforts. We believe that OTI remains the appropriate office to produce a comprehensive
DSF lessons learned study, given its role and mission. However, we updated our recommendation to
include the Stabilization Unit, given its ongoing effort with the MISTI program to compile lessons
learned on all programs.

In response to recommendation six, USAID/OTI concurred that a disengagement strategy at the district
level and an exit strategy at the country level should be developed. USAID/OTI noted that it has begun to
draft district disengagement criteria and will finalize the criteria under a new OTI program. OTI stated
SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative                     Page 14
that it would ensure that the disengagement criteria are finalized prior to May 2013, allowing for an
informed assessment of when OTI should disengage from a particular district/area of operation.
Decisions to disengage will take into account whether OTI can guide or support follow on programming
and the Administrator’s Stabilization Guidance and will include discussions pertaining to GIRoA
transition plans for provinces. Additionally, USAID will work with the Embassy mission to determine an
appropriate country level disengagement strategy.




SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative                Page 15
APPENDIX I: SCOPE AND METHODOLOGY

This report provides the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s audit of USAID’s Afghanistan Stabilization Initiative-East program to implement small-
scale community development and media activities to local implementers in target districts for the
36 month period from June 26, 2009 through June 25, 2012. This report assesses to what extent
(1) expended ASI-East costs were allowable, allocable, and reasonable; (2) performance oversight,
monitoring, and evaluation systems have been implemented; and (3) progress has been made toward
transitioning districts to the “build” phase of the COIN strategy. We reviewed documents covering the
period June 2009 through June 2012.

To determine if incurred project costs were allowable, allocable, and reasonable, we examined invoices,
evaluated timekeeping and billing policies and procedures related to internal controls, and had our
forensic team analyze DAI’s financial data. With the invoice review, we judgmentally selected
377 invoices from 6 other direct cost expense types for testing. For each invoice, we determined whether
adequate support documentation existed and required approvals were obtained. In addition, to access the
reliability of computer-processed data, we (1) interviewed officials to discuss the reliability of the data;
(2) conducted testing and checked for missing data, erroneous or incomplete entries, and duplicates; and
(3) compared system generated data with documents in the project files. For the timekeeping and billing
systems, we interviewed DAI staff in Kabul, Afghanistan to gain an understanding of how the policies
and procedures worked, obtained policy and procedure manuals, and performed walk through testing. We
compared the results and noted any discrepancies. We also reviewed the reasonableness of DAI’s
application of indirect cost rates and fixed fees. Additionally, we obtained and reviewed DAI’s external
auditors’ management report for the two most recent audits performed and noted any internal control
weaknesses identified. We investigated any anomalies to determine if the costs we properly recorded.

To determine whether performance oversight, monitoring and evaluation systems had been implemented,
we examined the task order to determine the reporting requirements. We interviewed USAID officials in
Kabul, Afghanistan and the contracting officer in Washington, DC to determine the reports that were
being sent and received and compared them to the reporting requirements. Additionally, we interviewed
the contracting officer and COTR in Washington, DC to determine how they provide oversight to the
program. We examined 20 judgmentally selected activity folders to determine if they had all the
necessary reporting documentation, the proper USAID signatures noting the activity was complete and
documentation of completion. We also examined DAI’s performance management system to determine if
it met the task order requirements and if it was performing adequately. We examined USAID’s third
party evaluator and the reports produced to determine what oversight and performance reporting was
being provided. Based on the third party evaluator’s reports, we determined what program challenges
were being encountered and how USAID and DAI were addressing the challenges.

To determine if progress has been made toward transitioning districts to the “build” phase of the COIN
strategy, we examined the task order to identify any transition requirements and compared it to work
performed by DAI. We also interviewed USAID and DAI officials to note if any districts covered by the
program had transitioned into the next phase. Finally, we analyzed the DAI 90 activities completed as of
September 2011.

We reviewed the financial data, including invoice and payment data, provided by USAID and DAI and
determined that the data provided was sufficiently reliable for the purposes of our audit. We also assessed
the adequacy of internal controls over DAI’s timekeeping and billing systems and procedures through
tests of selected transactions, interviews and physical observations.

We conducted work in Kabul, Afghanistan, and Washington, D.C., from May 2011 to June 2012, in
accordance with generally accepted government auditing standards. These standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence obtained provides a

SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative                     Page 16
reasonable basis for our findings and conclusions based on our audit objectives. The audit was conducted
by the Office of the Special Inspector General for Afghanistan Reconstruction under the authority of
Public Law No. 110‐181, as amended, the Inspector General Act of 1978, and the Inspector General
Reform Act of 2008.




SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative                 Page 17
APPENDIX II: PRELIMINARY MONITORING AND EVALUATION RESULTS

Tables I and II outline DAI and Altai Consulting monitoring and evaluation systems and preliminary
results through January 2012.


 Table I: DAI Monitoring and Evaluation Preliminary Results
 Level                        Description                                Preliminary Results
 Level 1                     DAI collects output information for all     After each activity is completed, DAI
 (program outputs)           awarded activities in its its TAMIS         produces a Final Monitoring Report, which
                             database and generates Final                is used to collect data at the close of each
                             Monitoring Reports for each completed       activity. This report provides detailed
                             activity. A DAI monitoring and              information about the outputs and activities,
                             evaluation staff member prepares a          the implementation process, challenges
                             lessons learned report using data from      encountered and lessons learned, the
                             the TAMIS system for a sample of 90         grantee’s performance, and project
                             completed activities.                       stakeholders’ assessments of the activity’s
                                                                         overall performance.
                                                                         In September 2011, DAI completed its first
                                                                         lessons learned report that analyzed 90
                                                                         closed activities. This report found that,
                                                                         overall, activities are successful at
                                                                         achieving intended purposes. The report
                                                                         also highlighted methods of implementation
                                                                         that were successful and should be used in
                                                                         the future to ensure that other activities
                                                                         achieve their goals and are successful.
 Level 2                     DAI started an assessment of the            DAI released the preliminary results of its
 (program impact)            impact of clusters of activities against    impact assessment in four districts in
                             specific sources of instability through     January 2012. In 5 of 9 cases, ASI-East
                             case studies. These case studies            programming was found to be a positive
                             examine the outcomes of projects on         factor. In one case, ASI-East programming
                             district areas. The impact assessment       was found to be a mitigating factor. In 3
                             is entirely qualitative and is gathering    cases, the data could not establish a
                             data from a range of stakeholders           positive or negative effect.
                             including program staff, district teams,    Additionally, the assessment found that the
                             residents of the district, and              DSF methodology allowed for identifying
                             stakeholders in stability working groups    sources of instability and adjusting
                             and provincial reconstruction teams.        programming to meet address them. The
                             A DAI monitoring and evaluation staff       assessment recommended (1) that ASI-
                             member managed the research and             East programming should consider the
                             production of the case studies which        COIN status of districts and restrict high
                             are designed to note observable             visibility projects until districts are moved
                             changes in stability and identify which     from the”shape” phase, (2) more
                             program strategies have and have not        coordination with the military so that
                             succeeded.                                  projects follow military operations for better
                                                                         effectiveness, and (3) increased community
                                                                         involvement of government officials.
 Level 3                     DAI, in concert with OTI, developed         In October 2011, RSI Consulting provided
 (overall progress toward    seven district-level stability indicators   DAI with a final report for ten districts
 stability)                  within the DSF and selected methods         indicating that overall stability in all ten
                             for their measurement. The purpose is       districts is negative based on the key
                             not to measure direct impact of DAI         indicators of stability.Specifically, the
                             projects, but rather to identify overall    decline in stability is attributed to security
                             stability in the areas in which DAI         issues within districts, a lack of confidence
                             operates. To standardize data               in the local and national government and
                             collection, DAI awarded a subcontract       underlying cultural differences between
                             to an Afghan research firm, RSI             locals and outsiders.
                             Consulting, to collect data on the 7
                             indicators across 10 districts.
 Source: SIGAR Analysis of DAI M&E Documents


SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative                                Page 18
 Table II: Altai Consulting Monitoring and Evaluation Preliminary Results
 Category                      Description                                  Preliminary Results
 Cycle 1                       OTI contracted with QED, which               In March 2011, Altai released its first cycle
 (monitoring)                  subcontracted with Altai Consulting, to      report that examined two districts in the
                               perform third party monitoring of DAI’s      East. This report found that across all
                               projects in a new innovative way.            districts, ASI projects generally addressed
                               In October 2010, Altai issued an             the grievances of the community, mostly
                               inception report which summarized a          addressed the priority problems of the
                               plan to develop methodological               community, built governance capacity, and
                               guidelines for M&E. Altai primarily          were being implemented according to their
                               relied upon physical project visits,         designed plan.
                               perception surveys and case study
                               reviews of completed projects.
 Cycle 2                       In cycle 2, Altai had started an             In July 2011, Altai released its cycle 2
 (monitoring/impact/overall    assessment of the impact of clusters of      report for the same two districts examined
 stability)                    activities against specific sources of       previously. The report found that overall
                               instability through case studies. These      projects were generally received well from
                               case studies examine the outcomes of         the communities. The report provided
                               projects on district areas. The impact       insights into community perceptions,
                               assessment is entirely qualitative and is    provided lessons learned, and noted that
                               gathering data from a range of               projects need a better association with the
                               stakeholders including program staff,        Afghan government for increased
                               district teams, residents of the district,   credibility.
                               and stakeholders in stability working
                               groups and provincial reconstruction
                               teams.
 Cycles 3 and 4                Cycles 3 and 4 will apply the same           Reports planned in two districts (plus one
 (monitoring/impact/overall    methodology used in cycle 2, with            new district and five new villages) in
 stability)                    further development of tools.                January/February 2012 and May/June
                                                                            2012.
 Source: SIGAR Analysis of Altai Consulting monitoring and evaluation documents.




SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative                                  Page 19
APPENDIX III: COMMENTS FROM THE U.S. AGENCY FOR INTERNATIONAL
DEVELOPMENT




                                                                                  See SIGAR
                                                                                  comment 1.




                                                                                  See SIGAR
                                                                                  comment 2.




SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative   Page 20
                                                                                  See SIGAR
                                                                                  comment 3.




                                                                                  See SIGAR
                                                                                  comment 4.




SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative   Page 21
SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative   Page 22
                                                                                   See SIGAR
                                                                                   comment 5.




SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative   Page 23
                                                                                   See SIGAR
                                                                                   comment 6.




                                                                                   See SIGAR
                                                                                   comment 7.




SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative   Page 24
                                                                                  See SIGAR
                                                                                  comment 8.




SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative   Page 25
                                                                                   See SIGAR
                                                                                   comment 8.




SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative   Page 26
                                                                                  See SIGAR
                                                                                  comment 9.




SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative   Page 27
SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative   Page 28
SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative   Page 29
                                                                                  See SIGAR
                                                                                  comment 10.




                                                                                  See SIGAR
                                                                                  comment 11.




                                                                                  See SIGAR
                                                                                  comment 12.




                                                                                   See SIGAR
                                                                                   comment 13.




SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative   Page 30
SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative   Page 31
The following are SIGAR’s responses to USAID /DCHA/OTI’s letter dated June 6, 2012:

    1. We replaced the word “security” with “stability” in the report title.

    2. Our draft report acknowledged that programming under the ASI-East project pertained to short
       term stability programming and is meant as a precursor to longer-term development programming.

    3. We updated the report to include the reference to Kunar and Wardak districts in footnote 16.

    4. We provided additional clarification of ASI-East’s role in the overall COIN strategy in footnote 1.

    5. SIGAR updated the terminology in the report from overhead to operational expenses. However,
       we segregated programming costs from all other operational costs to highlight the amount of
       expenditures that went directly toward activity level spending and the amount that went toward
       supporting those activities. As noted in our report, the ASI-East task order, at the time of award,
       stipulated an implied spending ratio of 55 percent on program activities and 45 percent on
       operating costs. Therefore, we do not believe it is invalid to segregate these costs to highlight the
       spending patterns.

    6. As part of our review of DAI and its financial reporting to USAID, we reviewed DAI’s
       timekeeping and billing systems to ensure that they were designed and functioning properly and
       effectively with respect to preventing, detecting, and correcting internal control deficiencies.
       Based on General Accounting Office Standards for Internal Controls in the Federal Government,
       dated November 1999, we identified minor deficiencies in DAI’s internal control that we believed
       warranted USAID’s attention. Taking corrective actions now will help mitigate systemic or more
       widespread occurrences of these or other deficiencies. The following lays out the guidance we
       used to address the recommendation regarding the time keeping and billing internal control
       weaknesses and procedural shortcomings.

        a. SIGAR believes that increasing the frequency of formal supervisory review from monthly to
           semi-monthly of Afghan timecards would help mitigate the potential of fraudulent entry.
           Increasing supervisory review of timecards is based on best practices and is consistent with
           the procedures used for ex-patriot staff.

        b. Having complete and available supporting documentation attached to paid invoices is
           required by FAR 52.215-2. Doing so helps facilitate the timeliness and accuracy of invoice
           retrieval for questions regarding claims, internal or external audits, or other procedural
           requests.

        c. SIGAR maintains that DAI should have performed a cost analysis, once security was in place,
           to determine the reasonableness of the cost to lease the items. This practice is consistent with
           FAR 31.201-3, “Determining Reasonableness.” A cost analysis would have aided DAI in
           determining whether the items it leased would have been cheaper to purchase over the course
           of the project.

    7. Based on M/OAA’s response that it had taken actions to determine that the $500,000 questioned
       costs are allowable, we requested the analysis that the DCHA/OTI Contracting Officer used to
       make this determination. M/OAA provided its response to our request on June 20, 2012, which
       stated that it believed the cost to be allowable based on FAR clause 52.216-7, Allowable Cost and
       Payment and FAR 31.201-2, Determining Allowability. In his response, the Contracting Officer
       noted that (1) the costs were reasonable and in-line with other M&E studies conducted by Altai
       and others in Afghanistan; (2) the costs were allocable to the task order and; (3) the terms of the
       task order and IQC were followed with regard to subcontracting. We do not dispute the
       Contracting Officer’s characterization of the reasonableness of the costs; however, the response
       does not address the lack of subcontractor oversight, as discussed on page 5 of the report. The
SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative                     Page 32
        mitigation plan that was implemented by OTI between DAI and Altai limited DAI’s ability to
        provide adequate subcontractor oversight as required by FAR 42.202(e)(2). DAI’s role in
        administering the subcontract was essentially limited to reviewing and approving invoices for
        payment, and did not allow for normal oversight responsibilities. Therefore, we continue to
        question whether the over $500,000 was allowable.

    8. We recognize that OTI no longer has ownership of the DSF and that it is being used by several
       different entities. As such, we updated Recommendation 4 to also include the Stabilization Unit
       Chief, so that OTI and the Stabilization Unit may work together, along with any other
       stakeholders, to amend the DSF. As noted in our report, we continue to believe that adding
       project outcomes to level 1 analysis allows for programming strategy to adapt faster based on
       continuous feedback instead of waiting for level 2 impact analysis to be performed.

    9. We recognize that the Stabilization Unit has an ongoing effort with the MISTI program, which is
       in its beginning stages, to compile lessons learned on all programs. However, according to a
       USAID Stabilization Unit official, the MISTI task order would be amended to remove the ASI-
       East program from the Stabilization Unit’s evaluation of stabilization programs and the
       Stabilization Unit and OTI would rely on an external contractor, instead of its own internal
       assessment, to provide feedback on the ASI-East program. Therefore, we maintain that OTI
       remains the appropriate office to produce a comprehensive DSF lessons learned study. The DSF
       became operational under OTI and remained the primary ASI-East programming tool for over 2
       years while training over one thousand civilian and military personnel. Given the Stabilization
       Unit’s role, since February 2012, in the ASI-East program, we revised recommendation five to
       also include the Stabilization Unit Chief.

    10. The reference to OMB Circular A-122 was removed.

    11. We believe the notion of the burn rate approach provides important context in light of the method
        used to program the first 49 grant activities by December 2009 for ASI-East under the military
        Tactical Conflict Assessment and Planning Framework. The shift toward the DSF approach to
        programming, as opposed to the burn rate approach, is a more tactical approach and was a
        significant undertaking on USAID’s part to steer away from the use of burn rate methods where
        programs were slow to start during their implementation phase.

    12. We updated the report to reflect “Grants Under Contract” as a tool.

    13. The DCAA manual provides guidance to audit agencies—in this case, to determine if a contractor
        performed adequate oversight over a subcontractor. FAR 42.202(e)(2) requires that prime
        contractors provide oversight over their subcontractors.




SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative                  Page 33
                  (This report was conducted under the audit project code SIGAR-047A).




SIGAR Audit-12-11 Contractor Performance and Oversight/Stabilization Initiative          Page 34
SIGAR’s Mission               The mission of the Special Inspector General for
                              Afghanistan Reconstruction (SIGAR) is to enhance
                              oversight of programs for the reconstruction of
                              Afghanistan by conducting independent and objective
                              audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to
                              provide accurate and balanced information, evaluations,
                              analysis, and recommendations to help the U.S. Congress,
                              U.S. agencies, and other decision-makers to make
                              informed oversight, policy, and funding decisions to
                                 •   improve effectiveness of the overall reconstruction
                                     strategy and its component programs;
                                 •   improve management and accountability over funds
                                     administered by U.S. and Afghan agencies and their
                                     contractors;
                                 •   improve contracting and contract management
                                     processes;
                                 •   prevent fraud, waste, and abuse; and
                                 •   advance U.S. interests in reconstructing
                                     Afghanistan.

Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s web site (www.sigar.mil). SIGAR posts all
                              publically released reports, testimonies, and
                              correspondence on its web site.

To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan          allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs       reprisal contact SIGAR’s hotline:
                                 •   Web: www.sigar.mil/fraud
                                 •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                 •   Phone Afghanistan: +93 (0) 700-10-7300
                                 •   Phone DSN Afghanistan 318-237-3912 ext. 7303
                                 •   Phone International: +1-866-329-8893
                                 •   Phone DSN International: 312-664-0378
                                 •   U.S. fax: +1-703-601-4065

Public Affairs                Public Affairs Officer
                              Phone: 703-545-5974
                              Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                              Mail: SIGAR Public Affairs
                              2530 Crystal Drive
                              Arlington, VA 22202
